No. 20-718
IN THE

~upreme <!Court of tbe Wniteb ~tates
MARIO NELSON REYES-ROMERO,

Petitioner,
V.

UNITED STATES,

Respondent.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5 and the April 15, 2020 Order of this
Court, I hereby certify that the Reply in Support of Petition for a Writ of Certiorari
in Reyes-Romero v. United States, No. 20-718, was served via electronic mail on all
parties required:
Elizabeth B. Prelogar
Acting Solicitor General

DEPARTMENT OF JUSTICE

950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
(202) 514-2217
su premectbriefs@usdoj.gov

Counsel for Respondent

I declare under penalty of perjury that the foregoin

Date: April 20, 2021

